OFFICE OF AUDIT
REGION 3
PHILADELPHIA, PA




           U.S. Department of Housing and Urban
               Development, Washington, DC
      Home Equity Conversion Mortgage Program




2013-PH-0002                1             DECEMBER 20, 2012
                                                        Issue Date: December 20, 2012

                                                        Audit Report Number: 2013-PH-0002




TO:            Charles Coulter, Deputy Assistant Secretary for Single Family Housing, HU
               //signed//
FROM:          John P. Buck, Regional Inspector General for Audit, Philadelphia Region, 3AGA


SUBJECT:       HUD Policies Did Not Always Ensure That Borrowers Complied With Program
               Residency Requirements


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG), final results of our review of HUD’s oversight of the Home Equity
Conversion Mortgage Program II.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
215-430-6729.
                                             December 20, 2012
                                             HUD Policies Did Not Always Ensure That Borrowers
                                             Complied With Program Residency Requirements




Highlights
Audit Report 2013-PH-0002


 What We Audited and Why                      What We Found

We audited the U.S. Department of            HUD policies did not always ensure that borrowers
Housing and Urban Development’s              complied with Program residency requirements. The
(HUD) oversight of its Home Equity           audit showed that 37 out of 174 borrowers reviewed
Conversion Mortgage Program based            were not living in the property associated with the loan
on our annual audit plan and our             and were renting the property to Section 8 voucher
strategic goal to improve the integrity of   participants contrary to residency requirements. This
HUD’s single-family insurance                condition occurred because HUD’s Office of Single
programs. This is the second of two          Family Housing did not have control policies or
reports that we issued on HUD’s              procedures in place to prevent or mitigate the problem.
oversight of the Program. Our objective      As a result, 37 insured loans were ineligible and should
was to determine whether HUD controls        be declared in default and due and payable to reduce
prevented borrowers from renting their       the potential risk of loss of about $525,000 to HUD’s
properties to Section 8 Housing Choice       insurance fund.
Voucher program participants.

 What We Recommend

We recommend that the Deputy
Assistant Secretary for Single Family
Housing (1) direct the applicable
lenders to verify and provide
documentation of the borrowers’
compliance with the Program residency
requirement or for each noncompliant
borrower, declare the loan due and
payable, thereby putting about $525,000
to better use, and (2) implement control
policies or procedures to at least
annually coordinate with HUD’s Office
of Public and Indian Housing to match
borrowers’ information with Section 8
voucher participant data to prevent or
mitigate instances of borrowers renting
out their properties to Section 8 voucher
participants.
                           TABLE OF CONTENTS

Background and Objective                                                    3

Results of Audit
      Finding: HUD Policies Did Not Always Ensure That Borrowers Complied
      With Program Residency Requirements                                   4

Scope and Methodology                                                       7

Internal Controls                                                           9

Appendixes
A.    Schedule of Funds To Be Put to Better Use                             11
B.    Breakdown of Estimated Funds To Be Put to Better Use                  12




                                           2
                       BACKGROUND AND OBJECTIVE

The U.S. Department of Housing and Urban Development (HUD) provides reverse mortgage
insurance through the Home Equity Conversion Mortgage (HECM) Program.

Loans insured under the Program enable elderly homeowners to convert the equity in their
homes to monthly streams of income or credit lines. To be eligible for a loan, the borrower must
be 62 years of age or older, own the property outright or have a small mortgage balance, occupy
the property as a principal residence, not be delinquent on any Federal debt, and participate in a
consumer information session given by a HUD-approved Program counselor. The maximum
amount (principal limit) the borrower or borrowers may receive is based on the age of the
youngest borrower, interest rate, mortgage insurance premium, and value of the home or HECM
FHA mortgage limits, whichever is less. The loan is secured by the home’s equity. Eligible
properties include single-family homes or one-to-four-unit homes with one unit occupied by the
borrower, HUD-approved condominiums, and manufactured homes that meet Federal Housing
Administration (FHA) requirements. The borrower is not required to repay the loan as long as
he or she continues to occupy the home as a principal residence, maintains the property, and pays
the property taxes and the mortgage insurance premiums. The loan agreement defines “principal
residence” as the dwelling where the borrower maintains his or her permanent place of abode
and typically spends the majority of the calendar year. A person may have only one principal
residence at any one time. The borrower must certify to principal residency initially at closing
and annually thereafter.

Servicing lenders are responsible for ensuring that borrowers meet the Program requirements,
including the annual certification of principal residency. The mortgage note contains a clause
stipulating that the lender may require immediate payment in full of all outstanding principal and
accrued interest, upon approval of an authorized representative of the HUD Secretary, if the
property ceases to be the principal residence of the borrower for reasons other than death and the
property is not the principal residence of at least one other borrower.

HUD’s Section 8 Housing Choice Voucher program provides Federal funds to assist very low-
income families, the elderly, and the disabled to afford decent, safe, and sanitary housing in the
private market. The funds are made available to public housing agencies through HUD’s Office
of Public and Indian Housing, and the housing choice vouchers are administered locally by
public housing agencies.

Our objective was to determine whether HUD’s controls prevented borrowers from renting their
properties to Section 8 voucher participants.




                                                3
                                     RESULTS OF AUDIT


Finding: HUD Policies Did Not Always Ensure That Borrowers
Complied With Program Residency Requirements
Borrowers did not always comply with Program residency requirements. Contrary to Program
residency requirements, 37 borrowers were not living in the properties associated with their loans
and were renting the properties to Section 8 voucher participants. This condition occurred
because HUD lacked adequate control policies or procedures to prevent or mitigate instances of
borrowers violating Program residency requirements by renting their properties to Section 8
voucher participants. As a result, 37 loans valued at about $5.8 million were ineligible, and
approximately $525,000 in undisbursed loan funds remained available to the borrowers, thereby
presenting a potential risk to the FHA insurance fund.




    37 Borrowers Violated Program
    Residency Requirements


                 Contrary to Program requirements, 37 borrowers were not living in the properties
                 for which they obtained home equity conversion mortgage loans. According to
                 Program regulations at 24 CFR (Code of Federal Regulations) 206.39, the
                 property associated with the loan must be the principal residence of each borrower
                 at closing. Also, regulations at 24 CFR 206.211 require servicing lenders to at
                 least annually determine whether the property associated with a loan is the
                 principal residence of at least one borrower and require borrowers to certify that
                 the property associated with the loan is their principal residence. Further,
                 regulations at 24 CFR 206.27 state that the mortgage balance will be due and
                 payable in full if the property ceases to be the principal residence of a borrower
                 for reasons other than death and the property is not the principal residence of at
                 least one other borrower.

                 We analyzed data in HUD’s Single Family Data Warehouse 1 and its Public
                 Housing Information Center 2 and identified 174 loan borrowers that were
                 possibly violating Program residency requirements by renting their properties to
                 Section 8 voucher participants. Based on reviews of documents obtained from
                 public housing agencies, servicing lenders, and public data sources, there was
                 substantial evidence indicating that 37 borrowers were not living in the property

1
  HUD’s Single Family Data Warehouse system contains case-level information covering all the processes in the
mortgage insurance life cycle of FHA-insured loans.
2
  HUD uses its Public Housing Information Center database to manage its public housing programs.

                                                       4
                    associated with their loan and were renting the property to Section 8 participants.
                    In 35 of the 37 cases, the borrowers provided annual certifications 3 indicating that
                    the underlying property for the mortgage was their principal residence. Regarding
                    the other two cases, in one case, the lender did not provide annual occupancy
                    certifications; and in the other case, the lender did not obtain annual occupancy
                    certifications because the loan is suspended for repairs. Given the audit evidence,
                    37 borrowers violated Program residency requirements, and of them 35 falsely
                    certified to compliance; therefore, the related loans were ineligible. The
                    breakdown for the remaining 137 loans reviewed is as follows:

                             •    123 borrowers were living in the property associated with their loan
                                  but had either rented a unit or room in the property to a Section 8
                                  voucher participant.

                             •    2 borrowers were not living in their properties and had rented them out
                                  to Section 8 voucher participants; however, the loans had been
                                  terminated.

                             •    For the remaining 12 borrowers, the property addresses were different
                                  from the Section 8 voucher participants’ addresses. Therefore, we
                                  found no evidence to confirm that the borrowers had violated the
                                  residency requirements.

    HUD Lacked Adequate
    Controls To Prevent or Mitigate
    the Problem


                    HUD did not have control policies or procedures in place to prevent or mitigate
                    instances of borrowers renting out their properties to Section 8 voucher
                    participants. The 37 borrowers identified had been advanced about $5.8 million,
                    and approximately $525,000 remained to be disbursed. However, 17 of the
                    borrowers had been advanced the full amount of their loans; therefore, there were
                    no funds left to be disbursed or drawn on those loans. HUD risks loss to its FHA
                    insurance fund for the loan advances made on the 37 loans.

                    HUD’s Office of Single Family Housing needs to quickly work with the
                    applicable servicing lenders to verify and obtain documentation of the borrowers’
                    compliance with Program residency requirements for each of the 37 cases
                    identified or for each noncompliant borrower, declare the loan in default and due
                    and payable. Doing so would reduce the risk of loss to the FHA insurance fund
                    because HUD would be relieved of potential future claim liabilities related to the
                    undisbursed loan amounts. Also, the Office of Single Family Housing can
                    prevent or mitigate instances of borrowers improperly renting out their properties

3
    We requested the borrowers’ annual certifications for the last 3 years from the applicable servicing lenders.

                                                             5
          to Section 8 voucher participants by periodically coordinating with the Office of
          Public and Indian Housing to compare data in their respective systems. This
          measure will allow the Office of Single Family Housing to identify potential
          violators of the residency requirements and work with applicable lenders to take
          steps to verify borrowers’ residency or otherwise declare loans in default and due
          and payable as appropriate.

Recommendations

          We recommend that the Deputy Assistant Secretary for Single Family Housing

          1A.     Direct the applicable servicing lenders to verify and provide
                  documentation of the borrowers’ compliance with the residency
                  requirement for each of the 37 cases or for each noncompliant borrower,
                  declare the loan in default and due and payable, thereby putting
                  approximately $524,993 to better use.

          1B.     Implement control policies or procedures to at least annually coordinate
                  with HUD’s Office of Public Housing to match data in the Single Family
                  Data Warehouse to data in the Public Housing Information Center to
                  prevent or mitigate instances of borrowers violating Program residency
                  requirements by renting their properties to Section 8 voucher participants.




                                            6
                            SCOPE AND METHODOLOGY

We conducted the audit from February to October 2012 at our office in Richmond, VA. The
audit covered the period January 2001 through December 2010 but was expanded as necessary to
accomplish our objective. We relied in part on computer-processed data in HUD’s Single
Family Date Warehouse and Public and Indian Housing Information Center. Although we did
not perform a detailed assessment of the reliability of the data, we performed a minimal level of
testing and found the data to be adequate for our purposes. The testing entailed matching
information obtained from the Single Family Data Warehouse and the Public and Indian Housing
Information Center to hardcopy documents provided by servicing lenders and public housing
agencies.

To accomplish our objective, we reviewed

    •   Relevant background information on the loans and applicable regulations,
    •   Program requirements,
    •   Loan information on the borrowers provided by the servicing lenders,
    •   Lexis Nexis 4 information on the borrowers,
    •   Information in HUD’s Single Family Data Warehouse,
    •   Information in HUD’s Public and Indian Housing Information Center,
    •   Information on Zillow.com, 5 and
    •   Information from Google Maps. 6

We interviewed staff from HUD’s Office of Single Family Housing, including loan servicing
personnel, and public housing officials.

We obtained loan-level data from HUD’s Single Family Data Warehouse System as of February
2011. Additionally, we obtained information on Section 8 voucher rental assistance participants
from HUD’s Public and Indian Housing Information Center. The Single Family Data
Warehouse contained information on 515,000 loans, and the Public and Indian Housing
Information Center contained records on 1.9 million Section 8 voucher participants. We
matched the data from the two systems and identified 174 borrowers that were possibly renting
their properties to Section 8 voucher participants. We then requested loan documents and
Section 8 Voucher Program records to determine whether the borrowers had violated Program
residency requirements by renting out their properties to Section Voucher Program participants.

A review of these documents and documentation from other information sources as outlined in
the bulleted list above disclosed substantial evidence that 37 borrowers were not living in the
properties associated with their loans and were renting them to Section 8 voucher participants.
As of September 1, 2012, the balance of advances to the borrowers was about $5.8 million, and

4
  The LexisNexis database is an online resource that provides information on legal and public records.
5
  Zillow.com is an online real estate database founded in 2005.
6
  Google Maps is a map and directions Web site from Google offering photographic views, showing real streets and
surroundings.

                                                       7
approximately $525,000 was still available for disbursement. Unless HUD obtains and provides
evidence to the contrary, the 37 loans were ineligible and should be declared in default and due
and payable. Doing so would reduce the risk of loss to HUD’s FHA insurance fund because
HUD would be relieved of potential future claim liabilities related to undisbursed loan amounts.
We estimated this savings to HUD (funds to be put to better use) to be about $525,000. We
calculated the estimated savings by obtaining and totaling the net funds available for
disbursement as reflected in HUD’s Insurance Accounting Collection System 7 for each of the 37
borrowers. A breakdown of the 37 loans questioned is provided in appendix C of this report.

On December 3, 2012, HUD said that it agreed with the audit finding and recommendations, and
had no comments on the draft report.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




7
 The Insurance Accounting Collection System was developed to handle the collection of financial data that are
unique to the Program.

                                                        8
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that the Program meets its objectives.

               •      Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports for the Program.

               •      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that Program
                      participants comply with Program laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

                                                 9
•   HUD lacked adequate control policies or procedures to prevent or mitigate
    instances of borrowers renting their properties to Section 8 voucher
    participants.




                                10
                                    APPENDIXES

Appendix A

     SCHEDULE OF FUNDS TO BE PUT TO BETTER USE

                           Recommendation          Funds to be put
                                  number           to better use 1/
                                          1A             $524,993



1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, implementation of our recommendation
     to declare ineligible loans in default and due and payable would reduce the risk of loss to
     the FHA insurance fund because HUD would be relieved of potential future claim
     liabilities related to the undisbursed loan amounts.




                                             11
Appendix B

       BREAKDOWN OF ESTIMATED FUNDS TO BE PUT TO
                      BETTER USE
                                       Loan funds advanced as of   Net funds available for disbursement
    #      FHA case number                 September 1, 2012              as of September 1, 2012
    1         045-6452081                         $167,830                               $0
    2         042-8186147                           77,161                           63,447
    3         044-4312843                          279,049                                 0
    4         048-4384208                          216,092                              279
    5         048-4557624                          188,062                               72
    6         052-1895949                          111,440                                 0
    7         052-5909929                          241,860                               66
    8         095-1283740                          192,110                              944
    9         137-3989613                          113,584                                 0
   10         141-1386280                          171,917                                 0
   11        *141-1450314                          216,055                           63,276
   12         141-1463432                          107,452                                 0
   13         141-1476097                          142,624                                 0
   14         251-3688423                          173,563                                 0
   15         197-1892090                           80,906                           36,906
   16         197-3575300                          192,939                                 0
   17         221-4164492                           51,343                            6,608
   18        *222-1758094                           22,633                                 0
   19         251-4062830                           65,921                                 0
   20         277-0475188                           93,451                              467
   21         292-4679516                           82,097                                 0
   22         351-5618547                          172,686                           31,017
   23         352-5550092                          282,526                                 0
   24         352-5717108                          140,428                          131,710
   25         352-5952203                          222,040                          138,159
   26         372-2958653                          123,786                                 0
   27         374-4627465                          226,184                            5,814
   28         374-4880984                          212,602                           39,047
   29         374-5379653                          311,084                              446
   30         374-5555800                          218,050                              437
   31         381-8780466                          116,793                                 0
   32         412-5537024                           63,236                                 0
   33         441-7851523                          139,832                            4,903
   34         451-0917670                          225,659                                 0
   35         461-5122105                           62,010                              267
   36         511-0090413                           27,208                              166
   37         374-5767426                          222,530                              962
  Total                                         $5,754,743                         $524,993
*Annual occupancy certifications not provided.




                                                     12
